—
I

2311 Douglas Street COCKLE $

E-Mail Address:
Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-100

CROWN ASSET MANAGEMENT, LLC,
Petitioner,
v.
MARY BARBATO,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF RMAI AS
AMICUS CURIAE IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 3715 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 19th day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE \
General Notary . Mitte. A. Chby
State of Nebraska . ”

Notary Public Affiant 38531

My Commission Expires Nov 24, 2020

 
